No.
In the Supreme Court of the United States
DONALD J. TRUMP, President of the United States,
Applicant,
v.
CYRUS R. VANCE, JR., in his official capacity as District Attorney of the County of
New York, MAZARS USA, LLP,
Respondents.

CERTIFICATE OF SERVICE

I, William S. Consovoy, caused three copies of the enclosed Emergency
Application for Stay and Appendix to be filed with the Clerk of the Supreme Court of
the United States via hand delivery, to be served on the following by first-class mail
and email:
Carey R. Dunne
N.Y. County District Attorney’s Office
One Hogan Place
New York, NY 10013
212-335-9216
dunnec@dany.nyc.gov

Dated: October 13, 2020

Thomas R. Manisero
Wilson Elser Moskowitz Edelman
& Dicker LLP
1133 Westchester Avenue
White Plains, NY 10604
(914) 323-7000
maniserot@wemed.com
/s/ William S. Consovoy
William S. Consovoy
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Counsel of Record for Applicant

i

